                                                 NA TIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

Case Nu:tpber: 1-11080034                                                               Page I of I



        This case was opened from a review l that identified SBIR awards 2 made to a companl that may
        have been ineligible to receive NSF funding. A preliminary review of company documentation
        also found potential mischarging of payroll to NSF awards.

        We reviewed the company's award expenditures and found no improper expenses. The company
        provided an acceptable explanation for how payroll was charged to awards. No eligibility issues
        were substantiated.

        This case is closed with no further action taken.




NSF OIG Fonn 2 (11/02)
